<html>
<title> - EXAMINING THE FEDERAL RESPONSE TO THE RISKS ASSOCIATED WITH PER- AND POLYFLUOROALKYL SUBSTANCES (PFAS)</title>
<body><pre>[Senate Hearing 116-11]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 116-11
 
                 EXAMINING THE FEDERAL RESPONSE TO THE
                   RISKS ASSOCIATED WITH PER- AND 
                   POLYFLUOROALKYL SUBSTANCES (PFAS)

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                              
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 28, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  






        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
        
                            ______                      


              U.S. GOVERNMENT PUBLISHING OFFICE 
 36-162 PDF             WASHINGTON : 2020         
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             MARCH 28, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     3

                               WITNESSES

Ross, David, Assistant Administrator, Office of Water, U.S. 
  Environmental Protection Agency................................     5
    Prepared statement...........................................     8
    Responses to additional questions from:
        Senator Barrasso.........................................    16
        Senator Carper...........................................    21
        Senator Capito...........................................    33
        Senator Cramer...........................................    36
        Senator Gillibrand.......................................    37
        Senator Inhofe...........................................    38
    Response to an additional question from Senator Markey.......    41
    Responses to additional questions from:
        Senator Sanders..........................................    41
        Senator Sullivan.........................................    42
        Senator Wicker...........................................    44
Sullivan, Maureen, Deputy Assistant Secretary of Defense for 
  Environment, U.S. Department of Defense........................    60
    Prepared statement...........................................    62
    Responses to additional questions from:
        Senator Barrasso.........................................    69
        Senator Carper...........................................    76
        Senator Capito...........................................    85
        Senator Gillibrand.......................................    87
        Senator Markey...........................................    88
        Senator Sullivan.........................................    92
Breysse, Patrick, Director of the National Center for 
  Environmental Health/Agency for Toxic Substances and Disease 
  Registry, Centers for Disease Control and Prevention...........    93
    Prepared statement...........................................    95
    Responses to additional questions from Senator Barrasso......   103
Birnbaum, Linda, Director of the National Institute of 
  Environmental Health Sciences and the National Toxicology 
  Program, National Institutes of Health.........................   106
    Prepared statement...........................................   108
    Responses to additional questions from:
        Senator Barrasso.........................................   124
        Senator Carper...........................................   136
        Senator Markey...........................................   138


 EXAMINING THE FEDERAL RESPONSE TO THE RISKS ASSOCIATED WITH PER- AND 
                   POLYFLUOROALKYL SUBSTANCES (PFAS)

                              ----------                              


                        THURSDAY, MARCH 28, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Capito, Rounds, 
Boozman, Wicker, Ernst, Cardin, Gillibrand, Markey, Duckworth, 
and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning.
    Before we start, I just want to mention that Senator 
Sullivan regrets that he is unable to join us today. Earlier 
this week his mother passed away, and he is with his family, 
mourning the loss. I know this is an issue that is very 
important to him, very important to the people of Alaska, and 
he will be following what is happening and certainly continue 
to be very engaged in this critical issue.
    That is why we call this hearing to order, because today we 
are going to examine the issue of per- and polyfluoroalkyl 
substances, or PFAS.
    You are OK if we just use PFAS?
    Senator Carper. No, I think we should use the real word.
    [Laughter.]
    Senator Carper. That will double the length of the hearing.
    [Laughter.]
    Senator Barrasso. PFAS are a large class of chemicals known 
for their resistance to oil and water.
    Since the 1940s, PFAS has been used in a broad array of 
industrial, commercial, and consumer applications, including 
nonstick cookware, waterproof clothing, stain resistant 
fabrics, food packaging, and aqueous film forming foams. These 
are foams used by the U.S. military and others to fight fires.
    Scientists have found that PFAS break down very slowly, if 
at all, in the natural environment. They have also found that 
some accumulate in the human body. These chemicals travel 
through water, through air, through soil, and humans absorb 
them through ingestion, inhalation, and their skin. It is 
estimated that about 97 percent of Americans have detectible 
concentrations of PFAS in their blood.
    Scientists believe that PFAS are associated with negative 
health effects, and more research is needed. To date, 
scientists have detected PFAS pollution in nearly every State. 
It appears to be concentrated in communities adjacent to, 
nearby, or downstream from military bases, from airfields, from 
airports, from firefighting facilities, and chemical 
manufacturing and processing facilities.
    Today we are going to hear from four very qualified 
witnesses representing three Federal agencies: the 
Environmental Protection Agency, the Department of Defense, and 
Health and Human Services. This is the first congressional 
hearing where all four witnesses from the relevant agencies 
will testify on the same panel, so we are looking forward to 
hearing from all of you today. This will give us a chance to 
hear how the Administration is addressing this important issue.
    Last month, the EPA released its PFAS Action Plan. The Plan 
includes deciding by the end of the year whether to set a 
maximum contaminant level, or MCL, for two types of PFAS--PFOA 
and PFOS--under the Safe Drinking Water Act; deciding whether 
to list these two chemicals as hazardous substances under the 
Superfund law; and issuing cleanup guidance for groundwater 
contaminated with these two chemicals. EPA's cleanup guidance 
is currently pending at the Office of Management and Budget.
    The Defense Department has identified 401 active or closed 
military facilities with known or suspected releases of PFOA 
and PFOS. These include the F.E. Warren Air Force Base and the 
Cheyenne Air National Guard Base in my home State of Wyoming. 
The Defense Department needs to take responsibility for its 
pollution. Most rural communities can't afford to clean up this 
contamination.
    Scientists have identified over 4,700 different PFAS 
chemicals. Over 1,200 of these at some point in time entered 
U.S. commerce. To date, the EPA has only been able to publish a 
monitoring methodology for 18 different PFAS chemicals in 
drinking water, so it is important that industry work with the 
EPA, the Centers for Disease Control, and the National 
Institutes of Health to help these agencies better detect PFAS, 
identify where these chemicals are produced and used, and 
understand the risks associated with them.
    In addition to the Federal agency response, I would like to 
take a moment and highlight the bipartisan work that Ranking 
Member Carper and I and members of the Committee have done on 
helping address this issue in our America's Water 
Infrastructure Act, which was signed into law by President 
Trump in October of last year.
    This Committee, along with our House counterparts, placed 
several provisions in the legislation to help address PFAS. 
These include new grant opportunities for States to address 
contaminants that are present or likely present in public water 
systems or underground drinking water sources. These grants 
will assist States with small and disadvantaged communities to 
promptly address problems associated with testing, with 
treatment, and with remediation of contamination sources such 
as PFAS.
    Our legislation also reauthorized the Drinking Water State 
Revolving Funds for the first time in decades. It greatly 
increases funding for this critical program so that drinking 
water systems can improve or replace their facilities to meet 
Safe Drinking Water Act standards and to improve public health.
    With the enactment of the America's Water Infrastructure 
Act, we have taken a significant step in the right direction to 
help address contaminants in drinking water, including PFAS, so 
we hope that this hearing can help the Committee assess the 
next steps on PFAS. Working together, we are committed to 
continue to find bipartisan solutions to address this important 
issue.
    With that, I would like to turn to my friend and Ranking 
Member, Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman. It is good to be here 
with you and our colleagues.
    I want to welcome all of our witnesses. At least one or two 
of you have been before us previously for a confirmation 
hearing, and I think this might be the first time we have seen 
Mr. Ross since he was before us. You look none the worse for 
wear. We are glad to see you all.
    Mr. Chairman, thanks a whole lot for scheduling this 
hearing. I think it is an important hearing.
    Just last week, our EPA Administrator, Andrew Wheeler, said 
that access to clean drinking water was, and I quote him, ``the 
biggest environmental threat.'' Access to drinking water, the 
biggest environmental threat. Those are his words.
    In a typical Administration, one could safely assume that 
we would see some greater sense of urgency from EPA to address 
this one significant aspect of what Administrator Wheeler 
describes as the biggest environmental threat that we face. But 
that is not the case here, at least so far. EPA is simply not 
approaching the issue of protecting drinking water for millions 
of Americans with the same sense of urgency and zeal with which 
it repeals Obama era regulations.
    That brings us to our central focus today, per- and 
polyfluorinated alkyl substances, commonly referred to as PFAS. 
These chemicals can be found in many household products, as 
well as in firefighting foam used by the military. 
Unfortunately, though, some PFAS chemicals have been shown to 
cause cancer, thyroid problems, and other adverse health 
impacts.
    Just last year, the town of Blades, Delaware, in southern 
Delaware--just south of Wyoming, Delaware--the town of Blades 
in my home State alerted more than 1,000 residents there and 
some area businesses and schools to stop drinking and cooking 
with public water because PFAS chemicals were found to be 
present at nearly twice the Federal health advisory level.
    Just up the road from Route 13 from Blades, 36 of 67 
sampled groundwater wells on Dover Air Force Base have 
reportedly shown dangerously high levels of PFOS and PFOA, two 
kinds of PFAS chemicals.
    This is a map. It is hard to see Delaware. In fact, it is 
also hard to see Maryland. But we are over there under all 
those blue circles, and some red ones as well.
    This is not just a problem in Delaware, as you can see; 
PFAS contamination is widespread. It is found in red States, it 
is found in blue States, in small water systems and large water 
systems, from dairy farms in Maine to Air Force bases in 
Alaska.
    That brings us to EPA's PFAS Action Plan. In May 2018, 
then-Administrator Scott Pruitt held a PFAS National Leadership 
Summit, and there he announced four ``concrete steps'' that EPA 
would take to address PFAS contamination. Mr. Pruitt said that 
with one of those steps EPA would decide to set a drinking 
water standard for PFOA and PFOS.
    Nearly a year after that summit, I asked then-Acting 
Administrator Andrew Wheeler, at his confirmation hearing for 
the post of Administrator, asked him if he would commit to 
setting a drinking water standard for PFAS. He would not make 
that commitment that day.
    Shortly after that hearing, press reports revealed that EPA 
had actually decided not to set a drinking water standard for 
PFAS. Understandably, this news was met with real concern on 
both sides of the aisle here.
    Weeks later, to my dismay, the final PFAS Action Plan 
essentially re-announced that EPA was still considering the 
very same four measures that Scott Pruitt had announced almost 
a year earlier, including that the Agency would decide whether 
to set a drinking water standard by the end of this year.
    With Mr. Wheeler's nomination at stake, he was finally, I 
think, compelled to commit to setting a drinking water standard 
for PFOA and for PFOS. This is a considerable victory, except 
that it will likely take years to complete because EPA has not 
yet even started its work.
    The second step that Mr. Pruitt laid out almost a year ago 
was that EPA would propose designating PFOA and PFOS as 
hazardous substances under the Superfund law. This move would 
help to hold polluters responsible for cleaning up contaminated 
areas. EPA's PFAS Action Plan said, again, that it would issue 
the proposal at some unspecified time in the future.
    I have introduced legislation that has been cosponsored by 
30 of our colleagues, bipartisan bill, that puts a 1 year 
deadline on this important action because the American people 
deserve to see some sense of urgency on this issue.
    The third step that Scott Pruitt announced was that EPA 
would issue guidance for cleanup standards for PFAS at 
contaminated sites by the fall of 2018. That guidance has been 
trapped at the White House since last August because the 
Defense Department has apparently actively been trying to 
weaken the EPA's proposal.
    Finally, Scott Pruitt said that EPA would assess the risks 
from other PFAS chemicals. Sadly, the PFAS Action Plan falls 
short of this promise as well. It does not include a commitment 
to ensure communities will be given information to assess 
whether their drinking water is safe from any identified risks.
    At his confirmation hearing, Mr. Wheeler said this, and I'm 
going to quote again: ``It is these Americans that President 
Trump and his Administration are focused on, Americans without 
access to safe drinking water or Americans living on or near 
hazardous sites, often unaware of the health risks that they 
and their families face. Many of these sites have languished 
for years, even decades'' in some instances. He goes on to ask, 
``How can these Americans prosper if they cannot live, learn, 
or work in healthy environments?''
    EPA's PFAS Action Plan fails to answer that question and 
only leads to one other: Where is the urgency? Where is the 
urgency from EPA on this issue?
    My hope--I think our hope--is that the witnesses before us 
today will commit to moving forward with a range of measures to 
protect Americans with an appropriate amount of urgency to 
befit a problem that Administrator Wheeler himself says is part 
of the biggest environmental threat that we face in this 
country.
    Thank you all. Welcome.
    Senator Barrasso. Thank you very much, Senator Carper.
    We are now going to hear from our witnesses. We are 
delighted to have the four of you here.
    First is Mr. David Ross, who is the Assistant Administrator 
of the Office of Water at the Environmental Protection Agency.
    We also have with us Ms. Maureen Sullivan, who is the 
Deputy Assistant Secretary for Environment at the Department of 
Defense.
    Welcome.
    We also have Dr. Patrick Breysse, who is the Director of 
the National Center for Environmental Health and the Agency for 
Toxic Substances and Disease Registry, both of which are part 
of the Centers for Disease Control and Prevention.
    Thank you for being here.
    Finally, Dr. Linda Birnbaum, who is the Director of the 
National Institute of Environmental Health Sciences and the 
National Toxicology Program, both of which are part of the 
National Institutes of Health.
    This is a very distinguished panel.
    I would like to remind the witnesses that your full 
testimony will be part of the record. Your written testimony, 
we will include all of that, so please try to keep your 
statements to 5 minutes so that we may have some time for 
questions.
    We all look forward to hearing your testimony.
    With that, I would invite you, Mr. Ross, to please begin.

  STATEMENT OF DAVID ROSS, ASSISTANT ADMINISTRATOR, OFFICE OF 
          WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Ross. Good morning, Chairman Barrasso, Ranking Member 
Carper, and members of the Committee.
    I am Dave Ross, EPA's Assistant Administrator for Water. 
Thank you for the opportunity to testify today regarding the 
growing public health concern associated with the release of 
PFAS chemicals into the environment.
    Since my first day on the job, I have been advised by our 
dedicated career professionals and scientists on all aspects of 
the emerging PFAS problem, from understanding the potential 
adverse health effects to the fate and transport of these 
chemicals in the environment, to what we know and what we don't 
know about the identification, treatment, and monitoring of 
these substances. EPA's scientists and technical staff have 
been amazing, and Administrator Wheeler and I greatly 
appreciate their expertise and their counsel.
    As we already heard, PFAS are a class of synthetic 
chemicals that have been widely used around the globe since the 
1940s because of their stain resistant, waterproof, and 
nonstick properties. We use them to floss our teeth; we use 
them when we hike in the rain; and we use them to protect 
public health and safety. Despite their everyday use, the body 
of science necessary to fully understand and regulate these 
chemicals is not yet as robust as it needs to be.
    Recognizing that, EPA is using and developing cutting edge 
research and moving forward with regulatory mechanisms designed 
to protect public health and the environment. EPA's commitments 
on these fronts are outlined in our PFAS Action Plan. That 
Action Plan was authored by our career professionals, and the 
recommended actions are a product of their expertise and 
counsel.
    The Action Plan was also informed by extensive stakeholder 
engagement that the Agency formally initiated last year at our 
National Leadership Summit. EPA held listening sessions in 
several communities across the country and reviewed 
approximately 120,000 written comments. The views on how to 
address PFAS are diverse and sometimes at odds, but EPA learned 
through this engagement that this is a multidimensional problem 
that requires multidimensional solutions.
    The Action Plan commits EPA to take important steps that 
will improve how we research, detect, monitor, and address PFAS 
chemicals. Today I would like to highlight five of the most 
important areas in the Action Plan, but I encourage you all to 
read the Plan in its entirety.
    First, EPA is committed to following the MCL rulemaking 
process for PFOA and PFOS as established by the Safe Drinking 
Water Act, a process that is designed to ensure public 
participation, transparency, and the use of the best available 
science and other technical information. The Agency has 
committed to making a proposed regulatory determination for 
PFOA and PFOS, which is the next step in the regulatory 
process, by the end of this year. EPA will also evaluate 
whether a broader range of PFAS chemicals should be regulated 
under the Safe Drinking Water Act.
    Second, EPA will continue our enforcement actions and will 
clarify our cleanup strategies. EPA has initiated the 
regulatory development process for designating PFOA and PFOS as 
hazardous substances under CERCLA and intends to issue interim 
groundwater cleanup recommendations for sites contaminated with 
those chemicals as soon as possible.
    Third, EPA will expand its focus on monitoring and 
understanding PFAS in the environment. For example, the Agency 
will propose to include PFAS in the next round of drinking 
water monitoring under the Unregulated Contaminant Monitoring 
Program. This action will improve EPA's understanding of the 
frequency and concentration of PFAS occurrence in drinking 
water by using newer methods that will detect more PFAS 
chemicals at lower levels.
    Fourth, EPA is expanding its research efforts and the 
scientific foundation for addressing PFAS by developing new 
analytical methods and toxicity assessments. Our goal is the 
close of the gap on science as quickly as possible, especially 
as it relates to emerging risk. We are also working to develop 
new technologies and treatment options to remove PFAS from 
drinking water.
    Finally, we will be working across the Agency and the 
Federal Government to develop a PFAS risk communication toolbox 
that includes materials that States, Tribes, and local partners 
can use to effectively communicate to the public.
    Additionally, the Agency remains steadfast in our 
commitment to support States, Tribes, and local communities to 
address PFAS contamination where and when it has been 
identified.
    Again, thank you for the opportunity to testify today with 
our Federal partners. I can assure you that the emerging PFAS 
exposure concern is a top priority for the Agency and our 
Administrator.
    I look forward to answering any questions that you may 
have.
    [The prepared statement of Mr. Ross follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
        
    Senator Barrasso. Thank you, Mr. Ross.
    Ms. Sullivan.

 STATEMENT OF MAUREEN SULLIVAN, DEPUTY ASSISTANT SECRETARY OF 
      DEFENSE FOR ENVIRONMENT, U.S. DEPARTMENT OF DEFENSE

    Ms. Sullivan. Chairman Barrasso, Ranking Member Carper, and 
members of the Committee, I am Maureen Sullivan, the Deputy 
Assistant Secretary of Defense for Environment. My portfolio 
includes policy and oversight of DOD's programs to comply with 
environmental laws such as the Safe Drinking Water Act and the 
Comprehensive Environmental Response Compensation and Liability 
Act, CERCLA.
    I want to thank Congress for your strong support for the 
Department of Defense, our national security priorities, and 
for the funding we need to protect our Nation. Ensuring the 
health and safety of our servicemembers, the families living on 
our installations, and the surrounding communities is one of 
our top priorities.
    I want to thank this Committee for the opportunity to 
discuss PFAS. We believe the Department has been leading the 
way to address these substances.
    One commercial product that contains PFOS and PFOA is 
aqueous film forming foam, or AFFF. This highly effective 
firefighting foam has been used by DOD, airports, fire 
departments, and the oil and gas industry. However, it only 
accounted for approximately 3 to 6 percent of the PFOS 
production in 2000, and DOD is just one of many users.
    Over the last 3 years, the Department has committed 
substantial resources and taken action to respond to concerns 
with PFOS and PFOA. When EPA issued the Lifetime Health 
Advisory (LHA) for PFOS and PFOA in May 2016, DOD acted quickly 
to voluntarily test our 524 drinking water systems that serve 
approximately 2 million people on our installations worldwide. 
Twenty-four of these systems tested above EPA's LHA level. DOD 
followed the EPA's recommendation to include providing bottled 
water or additional water treatment.
    CERCLA provides a consistent approach across the Nation for 
cleanup. The Defense Environmental Restoration Program statute 
provides authorities to DOD to perform and fund actions, and 
requires they be carried out in accordance with CERCLA. The 
first step is to identify known or suspected releases. DOD has 
identified 401 active and base realignment and closure 
installations with at least one area where there is a known or 
suspected release of PFOS or PFOA. The military departments 
then determined if there was exposure through drinking water. 
If so, the priority has been to cut off human exposure where 
drinking water exceeds EPA's LHA level.
    Now that exposure pathway is broken, the military 
departments are prioritizing sites for further action, using 
the longstanding CERCLA risk based process, worst first. These 
known or suspected PFOS and PFOA release areas are in various 
stages of assessment, investigation, and cleanup.
    As DOD moves through the CERCLA process, we will work in 
collaboration with our regulatory agencies and communities and 
share information in an open and transparent manner.
    To prevent further releases into groundwater, DOD issued 
policy in January 2016 requiring the military departments to 
stop using AFFF during maintenance, testing, and training. The 
policy also required the military departments to remove and 
properly dispose of supplies of AFFF containing PFOS.
    Currently, no fluorine-free versions of AFFF meet the 
military stringent performance requirements. We have funded 
research and demonstration projects to identify and test 
performance of fluorine-free AFFF. These efforts support the 
Department's commitment to finding an AFFF alternative that 
meets critical mission requirements, while protecting human 
health and the environment, and will represent $10 million in 
research and development funding.
    In summary, DOD is taking actions to reduce the risks from 
PFOS and PFOA. Our efforts reinforce DOD's commitments to 
meeting critical mission requirements while protecting human 
health. The Department recognizes that this is a national 
problem involving a wide array of industries and commercial 
applications, as well as many Federal and State agencies; 
therefore, it needs a nationwide solution.
    We look forward to working with you as you move forward.
    Thank you.
    [The prepared statement of Ms. Sullivan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Barrasso. Well, thank you so very much for your 
thoughtful testimony, Ms. Sullivan. We appreciate you being 
here today.
    Dr. Breysse.

 STATEMENT OF PATRICK BREYSSE, DIRECTOR OF THE NATIONAL CENTER 
   FOR ENVIRONMENTAL HEALTH/AGENCY FOR TOXIC SUBSTANCES AND 
  DISEASE REGISTRY, CENTERS FOR DISEASE CONTROL AND PREVENTION

    Mr. Breysse. Thank you, Chairman Barrasso, Ranking Member 
Carper, and distinguished members of the Committee.
    I am Patrick Breysse, the Director of the National Center 
for Environmental Health at the CDC, Centers for Disease 
Control and Prevention, and the Agency for Toxic Substances and 
Disease Registry. In addition to my role as Director, I have 
over 35 years of experience working as an environmental health 
scientist at the Johns Hopkins University Bloomberg School of 
Public Health.
    I appreciate the opportunity to be here today and to 
discuss our role in investigating the exposure and possible 
health effects associated with per- and polyfluoro substances, 
otherwise known as PFAS.
    CDC has measured PFAS chemicals in people's blood since 
1999 as a part of the National Health and Nutrition Examination 
Survey, known as NHANES. Since that initial analysis, CDC has 
detected four PFAS chemicals in at least 98 percent of NHANES 
participants.
    PFAS, as we have heard, are very persistent in the 
environment, requiring decades to break down. Because of their 
use and persistence in the environment, PFAS are found in the 
blood in people and animals from around the world.
    ATSDR is concerned about these potential exposures and are 
currently conducting work in more than 30 communities across 
the United States. For example, ATSDR and the State of Alaska 
were asked by the Navy to provide assistance near the Naval 
Arctic Research Laboratory in Lake Imikpuk where PFOA was 
found.
    We also provided assistance to the city of Parchment, 
Michigan, when they found their drinking water system had 
significant contamination with PFAS.
    ATSDR is also providing technical support to the State of 
Vermont around PFOA in private drinking water wells in North 
Bennington, as well as other sites across the country.
    As a part of our work in communities, ATSDR developed tools 
to help State, local, and Tribal territory health departments 
conduct PFAS exposure assessments. We recently partnered with 
the Association for State and Territory Health Officials in the 
States of Pennsylvania and New York to test the exposure 
assessment tools and provide a basis for conducting further 
exposure assessments across the United States.
    We have also developed guidelines for physicians to help 
them understand what PFAS is, how people are exposed, and the 
possible health effects associated with PFAS exposures.
    In June 2018, ATSDR published a draft Toxicological Profile 
on perfluoroalkyls for public comment and summarized the 
information on PFAS toxicity that included oral minimal risk 
levels for four PFAS compounds. We are now in the process of 
reviewing those comments.
    On February 21st, ATSDR announced that, in addition to the 
two initial exposure assessments in New York and Pennsylvania, 
there will be eight additional exposure assessment sites in 
communities near current and former military installations 
known to have past or a current exposure through their drinking 
water route. ATSDR will stagger the exposure assessments one 
after the other beginning later this year.
    ATSDR will measure PFAS levels in blood and urine of 
community members and examine the environmental factors that 
have contributed to their exposure. ATSDR will use these 
results to make public health recommendations to communicate to 
people about how to decrease their exposure. We plan to 
actively engage communities by interacting early and often, by 
sharing information proactively, and tailoring our messages. We 
hope these efforts garner buy in, encourage participation in 
our exposure assessments, and build relationships between ATSDR 
and the affected communities.
    ATSDR is also conducting a proof of concept study in Pease 
International Tradeport, New Hampshire, known as the Pease 
Study. This will be a model site that will allow CDC/ATSDR to 
evaluate study procedures and methods before embarking on a 
national multi-site health study.
    The exposure assessments, the Pease proof of concept study, 
and our community engagement activity are all being conducted 
in order to help us plan for and develop the multi-site 
national health study. This study will examine the relationship 
between PFAS and health outcomes in multiple communities with 
contaminated drinking water. It will take into account the 
lessons learned from the exposure assessments, the engagement 
activities in Pease, as well as other activities.
    In closing, I would like to leave you with a few thoughts. 
PFAS exposure through drinking water is widespread, having 
occurred for many decades, and human health studies are 
limited. Successfully addressing PFAS will take a collaboration 
with Federal agencies, and I look forward to participating in 
that collaboration and working together to address this 
problem.
    ATSDR is working across the United States to learn more 
about PFAS exposure and its health effects, and we are 
passionate about this work. There are extensive community 
concerns, and it is critical for ATSDR, local, State, Federal, 
and academia to work together to address these concerns.
    Thank you again for the opportunity to discuss CDC's and 
ATSDR's role in investigating exposure and possible health 
effects associated with PFAS, as well as our current and future 
planned activities. I welcome your questions.
    Thank you.
    [The prepared statement of Mr. Breysse follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Barrasso. Well, Dr. Breysse, thanks so much for 
that very thoughtful consideration in your testimony. We are 
very thankful that you are here today.
    Dr. Birnbaum.

STATEMENT OF LINDA BIRNBAUM, DIRECTOR OF THE NATIONAL INSTITUTE 
 OF ENVIRONMENTAL HEALTH SCIENCES AND THE NATIONAL TOXICOLOGY 
             PROGRAM, NATIONAL INSTITUTES OF HEALTH

    Ms. Birnbaum. Good morning, Chairman Barrasso, Ranking 
Member Carper, and distinguished members of this Committee.
    I am Linda Birnbaum, the Director of NIH's National 
Institute of Environmental Health Sciences, known as NIEHS, and 
the Director of HHS's National Toxicology Program, or NTP.
    For nearly 40 years I have conducted scientific research to 
better understand the health impacts of environmental 
exposures. I am here today to provide a scientific perspective 
about the large and complex class of chemicals known as per- 
and polyfluorinated substances, or PFAS.
    For nearly three decades NIEHS has conducted and funded 
research on health effects associated with human exposures to 
PFAS. NIEHS supported research uses human observational 
studies, animal models, in vitro tissue and cell culture 
systems, in silico computer approaches, and high throughput 
screening to study the effects of PFAS exposures. Research 
conducted to date reveals associations between PFAS exposures 
and a variety of specific adverse human health outcomes, 
including immune system dysfunction, endocrine disruption, 
altered obesity profiles, impaired child development, and 
cancer.
    While knowledge about these associations has steadily 
expanded in recent years, many questions remain unanswered. 
Therefore, NIEHS and NTP, in coordination with other Federal 
agencies and State and local governments, continue to conduct 
research to enhance our understanding of the biological 
mechanisms and processes that may be altered or harmed by PFAS.
    Currently, NIEHS funds more than 40 academic PFAS related 
projects. In the past year alone, NIEHS has received a 
significant increase in the number of PFAS focused grant 
applications. As a result, we have competitively awarded more 
grants in this area.
    Since September 2018, the last time I appeared at a Senate 
hearing on this subject, NIEHS has awarded 10 new PFAS research 
grants. Many of these projects are investigating early life 
exposures and long term health effects. NIEHS funded scientists 
have been extremely productive, publishing 28 manuscripts since 
September. A list of manuscripts is attached to my written 
testimony.
    Apart from our support of external research grants, the 
NIEHS Superfund Research Program, which is under this 
Committee's jurisdiction, is studying how PFAS moves through 
the environment. The Superfund Research Program is translating 
scientific findings to establish best practices for PFAS 
management and developing novel technologies for remediation of 
PFAS contamination.
    Additionally, NTP is collaborating with EPA to study more 
than 100 unique PFAS compounds. This collaboration enables us 
to compare individual PFAS to identify common or overlapping 
patterns of toxicity.
    While many research projects focus on a single or series of 
PFAS, current human exposures to PFAS involve complex mixtures, 
not individual chemicals. This reality complicates both the 
science of exposure measurement and the assessment of health 
risks. Current analytical techniques are limited for 
determining which specific PFAS are contained in a given 
complex mixture.
    Furthermore, health impact information for combined PFAS 
mixtures remains incomplete. Additional research is needed to 
assess environmental exposures to mixtures of PFAS and to 
determine their combined effects.
    Approaching PFAS as a class, rather than as thousands of 
individual compounds, is the best approach for assessing 
exposure and biological impact, and for protecting public 
health. PFAS are extremely persistent in our environment, they 
are transported globally with widespread human exposure, and we 
are learning more each day about PFAS toxicity. It is time we 
ask ourselves where are these widely used chemicals really 
needed? Does the value of PFAS use for modern day convenience 
outweigh the risks to public health and related health care 
costs?
    No matter how we answer that question, one thing is clear: 
scientific innovation is critical for shifting to safer 
alternatives.
    In closing, let me state that NIEHS is well positioned to 
continue contributing essential scientific knowledge about this 
large and complex class of chemicals. Our research can help 
regulators make sound, science based decisions and informs the 
medical and public health communities about the potential 
health effects associated with exposure to PFAS.
    I have submitted a more detailed statement for the record, 
and I welcome your questions.
    Thank you.
    [The prepared statement of Ms. Birnbaum follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
       
    Senator Barrasso. Thank you so much for your testimony, and 
thank you also for your life's contribution to the body of work 
that you have done. Thank you.
    Appreciate all of you being here.
    We are going to start by asking some questions, and I will 
begin with questions, and then we will go to other members.
    Ms. Sullivan, yesterday I think you know Todd Parfitt, who 
is the Director of the Wyoming Department of Environmental 
Quality, sent three letters to the Department of Defense. They 
concern known and suspected PFAS pollution at active and former 
military facilities in Wyoming. I think the map that was just 
shown by my colleague, Senator Carper, showed the dot there in 
Wyoming in the Cheyenne area.
    The Defense Department has found that the F.E. Warren Air 
Force Base and the Cheyenne Air National Guard Base have 
groundwater, surface water, and soil that have been 
contaminated with high levels of PFAS pollution. Could you 
explain to us what the status of the Department's efforts are 
to determine the nature and the extent of the contamination at 
those sites?
    Ms. Sullivan. Yes, sir, I will give you a brief overview, 
and I would be glad to have the Air Force come in and give you 
a much more detailed briefing at your convenience.
    The Air Force has completed the initial site investigation 
where they did find that there is the presence of PFOS and PFOA 
in the groundwater. They have confirmed that all the drinking 
water is upstream and is not impacted, so they are moving into 
the next steps of the investigation process, which will start 
this year in cooperation with the States.
    The same for the National Guard, that they are moving 
forward with the next phase of investigation now.
    Senator Barrasso. Great. I believe that contaminated 
groundwater at the National Guard Base is likely to migrate off 
base. There are residential areas around, so I just want to 
know when we can expect the Department to test the groundwater 
outside of the involved facilities as well.
    Ms. Sullivan. Absolutely. That is part of the entire 
investigation process, sir.
    Senator Barrasso. One of Todd Parfitt's letters also 
mentioned Wyoming's formerly used Defense sites, specifically 
the former Atlas D and Atlas E missile sites and the former 
Casper Army Airfield facility. The State of Wyoming believes 
that PFAS pollution may also be present at these additional 
sites, so can we also expect the Department to test pollution 
at these sites?
    Ms. Sullivan. Sir, the Corps of Engineers has done some 
research there, and we are committed to addressing our 
environmental liabilities at these sites. Initial investigation 
shows that the sites were closed prior to the use of AFFF, so 
they have done a certain amount of record search, and they will 
continue to determine whether or not we use the foam at these 
locations and are therefore a source. But most of them closed 
prior to the use of the foam.
    Senator Barrasso. Well, I appreciate that. I think it is 
critical that we do get these sites tested as well to confirm 
that there is no pollution there.
    Mr. Ross and Dr. Breysse, there has been so much discussion 
that the EPA's Lifetime Health Advisories for the two types of 
PFAS that we are talking about, chemicals specifically, PFOA 
and PFOS; Lifetime Health Advisories seem to be inconsistent 
with the CDC's minimal risk levels for these chemicals.
    I was just going to ask if both of you could maybe help 
explain the difference between the EPA's Lifetime Health 
Advisories and the CDC's minimal risk levels so that we all get 
a better understanding.
    Mr. Ross. I am happy to field that question first, Senator. 
They are different numbers, and they are different agencies 
with different missions, with different programs that use this 
information for different purposes. For example, we should 
really be talking about reference dose levels that EPA uses 
versus the minimum risk levels at the ATSDR. You really, as you 
are talking about our health advisories, should be comparing 
and talking about the actual screening levels.
    So the agencies use slightly different science for PFOA; we 
use a different endpoint, a different study. We look at kind of 
contaminant levels that come through multiple routes of 
exposure, whereas the ATSDR I think we can explain use 
different systems, they use different levels of uncertainty. So 
we use them to take a look and protect public health over a 70 
year lifecycle, and they use them for a different purpose, 
which I am sure the doctor can explain.
    Senator Barrasso. Doctor.
    Mr. Breysse. Thank you very much. So, minimal risk levels 
are part of what we call a toxicological profile, which is a 
document that we produce based on congressional legislation. We 
produced over 300 toxicological profiles with MRL levels in the 
past 20 years. We use them for a very specific purpose, and I 
think that purpose needs to be understood in order to 
characterize the differences we are talking about today.
    We use them as screening values, so we establish values 
using appropriate safety factors that we think below which 
health effects are not likely, above which it is possible, but 
we don't know for sure. So it allows investigators at hazardous 
waste sites to come in and screen chemicals, whether they are 
above or below that, to focus on the chemicals that we think 
the greater risk might occur. Oftentimes at hazardous waste 
sites there are dozens of chemicals, and the screening values 
allow us to do that.
    So, they are, by definition, perhaps, a little bit more 
conservative than what the long term health advisory might be 
because of that unique role; they are used by health assessors; 
they are used by those health assessors in the States; the 
local health departments and our health assessors at ATSDR, 
whether they are in the field or in Atlanta.
    Senator Barrasso. Thank you.
    Finally, Dr. Birnbaum, by your testimony, you have been 
focused on this for an entire career. Can you talk about what 
the most urgent public health questions related to PFAS 
chemicals are that we need to answer?
    Ms. Birnbaum. The PFAS are chemicals that, from the growing 
body of literature, affect multiple tissues in both males and 
females of multiple species at all developmental life stages. 
So I think that as the database grows and the research grows, 
we are beginning to understand more and more that it is not 
just cancer, it is not just effects on the immune system, it is 
not just effects, for example, on the kidney or the liver; it 
is also effects on development and reproduction and pretty much 
almost every system that you can think of.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. I believe it was former U.S. Supreme Court 
Justice Potter Stewart who said--sometime in the mid-1960s he 
said these words, he said--talking about obscenity, he said, I 
know it when I see it. He said, I know it when I see it.
    Part of our hearing today is focused on the word not 
obscenity, but urgency, and I would like to say I know it when 
I see it.
    I don't feel it. I don't feel it with respect to EPA. I 
have concerns as a retired Navy captain, I have concerns about 
a guy who has worked for years to BRAC-proof the Dover Air 
Force Base, for 30 years. I have a huge interest in this as a 
veteran. The Dover Air Force Base is beloved by our State, so 
for us this is personal.
    Ms. Birnbaum, do you sense the kind of urgency? Maybe you 
see something I don't see. Is there a sense of urgency here 
demonstrated by EPA, or should we just sit back and say, well, 
it is going along just fine?
    Ms. Birnbaum. We are working very closely with EPA's Office 
of Research and Development to study more than 100 different 
PFAS and to try to understand whether in fact they are all 
doing the same thing or may be grouped into a number of 
specific classes. This is a program that we call REAC, which is 
a Rapid Experimental Advances. We hope to have results from 
that available within months, not years.
    Senator Carper. That was not my question. You answered a 
different question. My question is do you sense an urgency from 
EPA that I don't, that we don't.
    Ms. Birnbaum. EPA appears to be interested in moving more 
rapidly than they have in the past on dealing with these PFAS 
chemicals, and I applaud that effort.
    Senator Carper. Maybe you are seeing something that we 
don't. I hope you are.
    Mr. Ross, I said in my opening statement for an agency 
whose leader says that access to drinking water is the biggest 
environmental problem, PFAS Action Plan does not convey that 
same sense of urgency.
    My question is a brief one, and I would ask for a brief 
response. After significant congressional pressure, the Agency 
has reversed itself and committed to setting an enforceable 
drinking water standard for PFOA and PFOS. We welcome that. 
When do you expect that rule will be finalized, please?
    Mr. Ross. We intend to propose the first step in the 
process this year. When we finalize it is a factor of what is 
in the proposal----
    Senator Carper. Just give us a rough idea. When do you 
expect the rule to be finalized?
    Mr. Ross. We are going to move as expeditiously as we 
possibly can. At this point, I do not know how many comments we 
will get; I don't know the science, and to give you an estimate 
at this point really is a function of what the proposal will 
look like and what the public engagement is like. My job is to 
move as expeditiously as we can.
    To your sense of urgency, with all due respect, I know it 
when I see it, and I see it every single day with the career 
employees who are working around the clock, and in fact, have 
pulled all-nighters on this issue. I have hundreds of people 
who are working at the Agency everyday who are dedicated to the 
mission of protecting public health and the environment, and 
when you say that EPA is not doing enough, that is a disservice 
to those people who are doing something every single day.
    Senator Carper. To the folks who are working hard, all-
nighters, the folks at EPA and other agencies, convey our 
thanks.
    We are doing oversight here. Got it? We are doing 
oversight. We are doing oversight here to make sure that you 
and the folks at EPA are doing your job. We have our 
constituents throughout this country that are at risk, and we 
want to see a sense of urgency and feel it every day, so keep 
it up. For those who are conveying that sense of urgency, 
terrific; for those who aren't, pedal to the metal.
    Mr. Ross. I agree with you, Senator.
    Senator Carper. Ms. Sullivan, 32 percent of Americans' 
drinking water comes from groundwater. That is not even 
counting the 13 million households who get their drinking water 
from private wells. Why is the Department of Defense trying to 
weaken the EPA cleanup guidance in a way that will leave 
hundreds of military sites contaminated at levels that are 
vastly higher than EPA's drinking water health advisory says is 
safe?
    Ms. Sullivan. Sir, the Department takes our cleanup 
responsibilities seriously, and we are not seeking a different 
or weaker standard. We support the use of the long established 
CERCLA risk based cleanup process established in EPA's 
implementing guidance.
    Senator Carper. Is that all you have?
    Ms. Sullivan. Well, the process is long established, it 
applies to all chemicals nationwide, and that is what we are 
trying to process. And honestly, sir, I have been asking for 
the groundwater guidance since the Lifetime Health Advisory 
came out, so I am very interested in it being finalized myself.
    Senator Carper. Thank you.
    I think we will have another round of questions. I look 
forward to that.
    Thank you.
    Senator Barrasso. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    Secretary Sullivan, in your testimony you discuss the three 
pronged approach you have taken to address drinking water 
impacted by DOD releases. In my home State of South Dakota, 21 
off-base groundwater wells affected by Ellsworth Air Force Base 
have tested above the EPA's Lifetime Health Advisory level.
    By the way, the Ellsworth Air Force Base was just selected 
as being the bed-down site for the new B-21 stealth bomber, and 
we will have the first training site as well as the first 
operational squadron there, so we have a long history ahead of 
us.
    But 21 off-base groundwater wells have been affected by the 
Ellsworth Air Force Base, and these have tested above the EPA's 
Lifetime Health Advisory level. While we know the DOD is 
providing bottled water weekly to impacted residents, can you 
offer your perspective in regard to how DOD can best address 
these contaminations with respect to the economic hardships 
caused to private property owners long term?
    Ms. Sullivan. Sir, I appreciate that. I am not familiar 
with the specifics of Ellsworth, but I am glad to get the Air 
Force up here to brief you. I can say that we are working 
diligently to get people off bottled water.
    Senator Rounds. Look, here is the deal. It is not just 
Ellsworth.
    Ms. Sullivan. It is everywhere.
    Senator Rounds. Yes, it is. Another site in Sioux Falls, 
South Dakota, with the 114th Squadron at Joe Foss Field, we are 
discovering PFAS there as well. Any place basically where we 
have firefighting requirements, there is a case of where we 
have groundwater contamination.
    Ms. Sullivan. Correct.
    Senator Rounds. So nationwide. But when we come to this, 
any plans right now on how we want to address the long term 
impacts for these private property owners in those areas? Do 
you know of any plans right now laid out at all?
    Ms. Sullivan. At these locations, we are entering into 
cooperative agreements so we can reimburse the communities for 
the costs, so that we are paying the costs of the treatment 
from the Department of Defense Environmental Restoration 
Program and our Operations and Maintenance budgets.
    Senator Rounds. So, fair to say that you believe that it is 
the intent of DOD to take responsibility for the cleanup of 
these sites wherever we find them where DOD has an obligation?
    Ms. Sullivan. Where DOD is the known source, it is our 
responsibility to clean up the water and provide safe drinking 
water.
    Senator Rounds. And I agree with you. Secretary Sullivan; 
last year I joined with my colleague, Senator Gillibrand, on 
the Senate Armed Services Committee in introducing an amendment 
to the fiscal year 2019 National Defense Authorization Act. 
This amendment would have allowed the National Guard to access 
environmental restoration financing under the Defense 
Environmental Restoration Fund.
    While the rest of the military has access to this fund, the 
National Guard is required to fund environmental remediation 
through their Operations and Maintenance accounts. As you know, 
diverting resources from O&M jeopardizes the readiness of our 
National Guard units.
    Unfortunately, our amendment was not adopted in the 2019 
NDAA. As we examine the extent of PFAS contamination 
nationwide, much of which originated from PFAS containing 
firefighting foam mandated by the Department of Defense, do you 
believe that the National Guard installations should have the 
same access to these environmental cleanup resources?
    Ms. Sullivan. Sir, this is a complicated legal question on 
fiscal law, and I believe----
    Senator Rounds. Now, wait a second. It is not a complicated 
question; it is real simple. Is DOD responsible for it? And why 
would we exclude the National Guard bases from having access to 
it?
    Ms. Sullivan. Sir, they are under the control of the 
Governor, and therefore, it has to come out of the Operations 
and Maintenance accounts.
    Sir, I appreciate your concern. We have ensured that there 
is money in the Operation and Maintenance accounts. It is a 
zero sum game; we either allocate it to the Environmental 
Restoration account, or we allocate it to the O&M account. It 
is the same money.
    Senator Rounds. I would accept that the Governors will tell 
you that we have two different titles that we operate the 
National Guard under, but clearly the guidelines coming from 
DOD that have laid out what the firefighting equipment is and 
how it should be handled, including the chemicals being used, 
is not under the control of a Governor and should not be 
expected to come out of O&M.
    All I would ask is this. Would you help us in making darn 
sure that our National Guard bases have the resources, and not 
taken out of their other accounts, to fight to get these PFAS 
issues resolved one way or another and on an expedited basis?
    Ms. Sullivan. We are fully supportive of putting the 
appropriate money in the account for the Air National Guard to 
be able to address this.
    Senator Rounds. I look forward to working with you, and I 
hope Senator Gillibrand will join me again this year in making 
certain that we have an account set up so that these National 
Guard bases have the same protections as any other DOD facility 
would have. I thank you for your efforts.
    Ms. Sullivan. Look forward to working with you, sir.
    Senator Rounds. Thank you.
    Senator Carper [presiding]. Thank you, Senator Rounds.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    I am going to follow up on the issues of responsibility for 
remedial actions.
    Secretary Sullivan, I appreciate your answer in regard to 
DOD taking responsibility for cleanup where it is clear that 
they are responsible for the contamination. In Maryland, we 
know that we have at least four military sites that have been 
declared--including White Oak, Fort Meade, the Naval Academy, 
Naval Research Lab, Chesapeake Bay, all of which have been 
determined to have contamination.
    I want to get a little bit broader than this, Mr. Ross, as 
to the responsibilities for cleanup under the Clean Water Act. 
You are looking at a declaration that could very well require 
some remedial activities within our drinking water supplies, 
including our wastewater treatment facility issues. And the 
source of the contaminant may not be as well understood coming 
into our general water supply. Our managers are already 
stressed on the cost of improvements to the wastewater 
treatment facility plants. I just recently visited with 
Administrator Wheeler about an effort in Baltimore that we are 
doing in modernizing our wastewater treatment facility plants.
    So can you just share with us how we can go about the 
remedial activities in holding those that are responsible for 
the contamination responsible, rather than putting additional 
burdens on our local governments or ratepayers that are already 
stressed?
    Mr. Ross. What you are getting at is the affordability 
issue, and that is an issue that I take very seriously. It is 
the affordability about just our wastewater, our drinking 
water, and our stormwater requirements as we grapple with aging 
infrastructure and all of those issues coming together. At the 
end of the day, it comes down to the single ratepayer, so we 
take our responsibility to think holistically about that 
ratepayer as we think about this.
    Part of the answer to the question is a CERCLA answer, and 
it is one of the reasons why we are looking at the hazardous 
waste listing. You said if it is a groundwater source, and it 
is coming from a release, if we list those as hazardous 
substances, like PFOA and PFOS, that helps in the cost recovery 
aspects of the Federal Government or State and local government 
don't fund the cleanup, and there is another recovery mechanism 
there.
    We have the grant programs that we have, the WIFIA program 
that I think you participated with Administrator Wheeler. It is 
a great program. So those are the issues that we have to take a 
look at, a site specific cleanup, can you find a way to pay for 
it for the responsible party, and that is one of the reasons 
that we are taking a hard look at CERCLA.
    Senator Cardin. I appreciate that. Our first objective is 
public health and safety, so that is No. 1, and I appreciate 
the fact that we are now looking at an assessment as to what is 
the appropriate level that we will tolerate. And moving toward 
remedial actions for levels that are higher than that.
    As we go forward in looking at how to assess that 
responsibility, our first order also should be to prevent 
further contamination, so I hope as part of what we are looking 
at in the policies is that we prevent further contamination 
where we can so that we don't have to go through the costs of 
remediation.
    But as we look at the remediation itself, holding 
responsible parties for the costs certainly needs to be part of 
the equation. We don't want to shortcut public safety, but we 
have to recognize the capacity of the ratepayers and of the 
local managers as to the issues that we are confronting.
    So, I hope in your answer you weren't suggesting that we 
would use a cost analysis on public health, but a cost analysis 
as to how we are going to do the remedial work.
    Mr. Ross. Actually, this is why we have a holistic action 
plan, it is to reduce exposure where we have it, it is putting 
in the mechanisms to make sure that we are protecting public 
health is always our first priority, so developing the drinking 
water standards, the cleanup standards that we are talking 
about.
    We are also looking, on the Clean Water Act side, whether 
or not we have technology based effluent limitation guidelines 
or water quality surface criteria. The Action Plan gets into 
all of that. Preventing future risk, our TSCA has a huge piece 
of the Action Plan as we are looking at new chemicals coming 
into the market.
    I mentioned in my opening statement this is a 
multidimensional problem, and our Action Plan focuses on 
multidimensional solutions.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso [presiding]. Thank you very much.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    Thank all of you for being here today.
    My State, West Virginia, unfortunately is all too familiar 
with this issue. Our State faces PFAS contamination challenges 
from both a history of industrial emissions in Wood County, but 
also military use of firefighting foams in Berkeley County.
    The Federal Government, in my opinion, needs a 
comprehensive approach to addressing this challenge. To be 
comprehensive, I think we need a three pronged solution here. 
One is identifying and preventing potential emissions of PFAS 
into the environment in the first place; two is protecting the 
drinking water sources through technical assistance and a 
maximum contaminant level adapted to the costs and challenges 
of sampling and mitigating PFAS, particularly in small rural 
areas, which is where, in my State, this is occurring; and then 
cleaning up any kind of legacy contamination.
    I am working with Ranking Member Carper and Senator 
Gillibrand to try to do legislative approaches to this.
    I am encouraged that EPA--and we talked about this, Mr. 
Ross, on the Action Plan adapting a holistic approach, but I am 
concerned that we are falling slightly short here. I always 
equate it to--which I think we all do on a personal level--if 
this was the water that your children and grandchildren were 
drinking, what would be the emerging level of concern, rather 
than having it occurring somewhere else. And I know at the 
heart of everybody we all feel that way, but when it is 
directly affecting you it really takes on a stronger urgency, I 
would say.
    I am going to start with Ms. Sullivan because I think you 
were asked in a House hearing about how much PFOA and how much 
PFOS the Department of Defense currently has stockpiled, and 
the estimate of the cost to remediate this. Could you answer 
that question?
    Ms. Sullivan. Honestly, ma'am, I don't know how much we 
have stockpiled. I can tell you that in 2016 we directed the 
military departments to stop using AFFF for testing and 
training and maintenance. They are not using it. So we are only 
using it where we actually have to fight a fire, which is a 
very limited circumstance. And in those occasions, we treat it 
as if it is a spill and contain it so it doesn't get into the 
groundwater.
    We have taken all of the older versions of the foam that 
contained PFAS and removed them from the supply system and 
disposed of them.
    Senator Capito. Disposing of them. Are you burning them?
    Ms. Sullivan. Yes, we are.
    Senator Capito. And what kind of air exposure do we have 
with burning PFAS?
    Ms. Sullivan. We send it to EPA permitted hazardous waste 
incinerators that have the appropriate temperature and dwell 
time.
    Senator Capito. Would that be one in East Liverpool, Ohio?
    Ms. Sullivan. I honestly don't know, ma'am. I am not sure.
    Senator Capito. The report is that that is where you are 
burning it. Then is there testing in the air? Is that EPA's----
    Ms. Sullivan. That is EPA's permitting process. I would 
defer to them.
    Senator Capito. Right.
    I know, Mr. Ross, you are not Air, but do you have a 
response to that?
    Mr. Ross. I don't know that specific facility, but I do 
know that we are, as part of our research strategy, taking a 
look at, particularly our Office of Research and Development 
scientists, on how to monitor stack emissions and taking a look 
at--because I worry about the lifecycle of these chemicals. You 
take them out of water supply. Are we just transferring the 
media to which we have a problem? So our research scientists 
are taking a look at emissions testing and figuring out how we 
can monitor for that----
    Senator Capito. Is that part of the Action Plan that came 
forward?
    Mr. Ross. It is part of the Action Plan. It is part of our 
holistic approach, yes.
    Senator Capito. And I think some of the criticism of the 
Plan that was put forward, that there was no time certain as to 
when you would be getting maximum exposure levels. I am sorry I 
missed the beginning of the hearing; I was chairing another 
subcommittee. Could you expound on that for me, please?
    Mr. Ross. Yes, I am happy to. In the Action Plan, we commit 
to proposing a regulatory determination this year. There is 
interest in us giving a very specific timeline on when we are 
going to finish that, and my commitment to Senator Carper and 
to you now is that we are going to move through that process as 
expeditiously as possible.
    We have very specific requirements in the Safe Drinking 
Water Act that Congress gave us that ensure public 
participation, scientific integrity, all those issues. It is a 
long process, to be frank, but it is designed to make sure that 
we use the best science possible to make sure that we are 
making the right decisions, and my job is to make it as 
defensible as possible.
    Senator Capito. Are you telling me, then, that now we don't 
have adequate science to make a judgment?
    Mr. Ross. Well, part of this panel is holistically we 
certainly need more science across the entire realm of the PFAS 
world. For PFOA and PFOS, we have occurrence data that we 
gathered as part of our unregulated contaminant monitoring rule 
from 2013 to 2015. That is our base data. We are gathering the 
new information that the States are gathering, New Jersey, 
Pennsylvania, Michigan, New York, others, as Senator Carper 
showed on his chart, taking all that information to figure out 
how do we grapple with a nationwide regulation.
    So we have the data, we are working through the data, and 
the science is constantly evolving, so our scientists are 
taking into account all that new information.
    Senator Capito. Thank you.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Thank all of you for your testimony today. My colleague 
from Maryland, Senator Cardin, mentioned that in Maryland we 
have four DOD sites, either because they are currently active 
or previous sites, where you found PFAS contamination, so my 
question is when you make those findings, is that information 
made available to the surrounding community, and in what form?
    Ms. Sullivan. Thank you, sir. Yes, we have to make that 
information available. It is available through multiple 
formats. Most of these installations have what we call 
restoration advisory boards, which are citizen groups, so the 
information is presented to them at their board meetings, as 
well as we post it on the Web sites for each of the military 
departments.
    Senator Van Hollen. So all of that. OK.
    Ms. Sullivan. All of that is posted.
    Senator Van Hollen. Because we have heard from some 
citizens' groups they have had trouble accessing the results of 
some of the testing. Not in Maryland, but elsewhere.
    Ms. Sullivan. We always have challenges with some of our 
Web based systems because of security controls, but that is 
just something we work through on a day to day basis.
    Senator Van Hollen. Thank you.
    Mr. Ross, DOD is obviously undertaking these studies and 
tests of their facilities. For other Federal facilities--and 
right now I am thinking of a NASA facility. We have Wallops 
facility in Virginia. A lot of Marylanders work there. For 
other Federal facilities, are they each responsible for 
detecting contamination on their sites, or is that something in 
the purview of EPA?
    Mr. Ross. Well, if they are Federal military facilities, 
the Department of Defense----
    Senator Van Hollen. All others I am thinking of.
    Mr. Ross. All others? There is a combination of both State 
oversight and Federal oversight. We rely on our regional 
offices to work primarily with the States, so if those 
facilities are not under the Department of Defense control, 
there will be a combination of State and Federal work together, 
and our regional offices basically provide the technical 
assistance to the States to do a lot of that work.
    Senator Van Hollen. So, in the case of Wallops, which is a 
NASA facility over near Chincoteague but right near the 
Maryland-Virginia border, we have had concerns raised by 
Federal employees who work there. Would that be something that 
EPA was directly involved in monitoring and informing the 
community about the risks?
    Mr. Ross. I don't know a lot about the details, but I am 
aware of the facility there, and I know that our EPA regional 
staff are working with the State and the local community to 
evaluate and provide the technical assistance, so I do know 
that we have people on the ground there at that facility.
    Senator Van Hollen. Got it. Now, with regard to the best 
way to measure the results, and I am learning from all of you, 
some of the earlier testimony indicated that you use a minimal 
risk level. I believe that DOD used something called the Long 
Range Health Assessment, the LHA. Is that correct?
    Ms. Sullivan. EPA is the Lifetime Health Advisory.
    Senator Van Hollen. Lifetime, all right.
    Ms. Sullivan. Lifetime Health Advisory that they have 
issued.
    Senator Van Hollen. Right. So there are obviously 
differences in how you measure risks between the two. Is there 
any consensus within the scientific community about whether one 
measure is a better measure of risk to human health than the 
other? Is this part of the ongoing discussion? I am just 
interested to hear that there are these two different systems; 
one seems to be more--as you described it, Doctor--conservative 
than the other. Could you just describe which you think is the 
best way to measure the potential harm to human health?
    Mr. Ross. With a couple of Ph.D.s on this, I would 
certainly defer to the Ph.D.s. Part of this is the challenge is 
it depends on what you are looking at. So, for EPA, if you are 
looking at drinking water systems, we have our methodologies 
that we do to provide, in this instance, a health advisory, a 
Lifetime Health Advisory that will protect the most sensitive 
population over 70 years of consumptive use.
    So, in that circumstance, as the drinking water experts and 
the toxicologists and our scientists do that work, that may be 
the most appropriate. In other circumstances, screening levels, 
our Superfund program, they work carefully with the ATSDR, 
there are different methodologies that will go after the 
screening levels to be more conservative.
    So, I think where we look for the commonalities is the core 
science, the studies that we all rely on, the different 
endpoints, the health effect responses within each of the 
individual compounds, that is where I think is the commonality 
amongst all the Federal agencies.
    And correct me if I am wrong, please.
    Mr. Breysse. I think that is right. I think one important 
point we all need to note is that the science around these 
compounds, as Dr. Birnbaum mentioned, is emerging rapidly, so 
almost as we establish a benchmark for whatever purpose it 
might be established for, in a matter of months it may be out 
of date based on the new science that is emerging.
    We have States that are establishing benchmarks that are 
different than the Federal health advisories, that are 
different than our minimal risk levels, so there is a landscape 
of uncertainty around these chemicals that we are having to 
deal with today, and that is all the more important that we 
work together as a Federal group of people to understand that 
landscape, work within that landscape.
    It is OK to talk to people about uncertainty and what that 
uncertainty translates into. That is, unfortunately, part of 
the science where we are right now. It makes our job harder, 
but it also means that we need to focus better on how we all 
work together, communicate things.
    So ATSDR's mission is to address community health concerns 
around these chemicals. We stand in front of communities on a 
weekly basis to talk about these issues, and we discuss all the 
various benchmarks that might be and what they might mean, and 
from our experience, when you address these concerns in an 
honest way, they understand it, and they get it. They like to 
use whatever is most conservative. That is understandable. They 
like to have clean drinking water. That is understandable. And 
that is what we should all be working toward.
    Senator Van Hollen. Got it. Thank you.
    Mr. Ross, we may follow up with you on the Wallops facility 
specifically in Maryland just because there are continuing 
concerns, I think.
    Thank you.
    Senator Barrasso. Thank you so very much.
    Senator Duckworth.
    Senator Duckworth. Thank you, Mr. Chairman.
    Sorry for my voice; my daughter brings home every cold from 
preschool, which is a Petri dish over there.
    Ms. Sullivan, while testifying before the House Committee 
on Oversight and Reform Subcommittee on Environment, you stated 
that the total cost of cleaning up PFAS pollution could reach 
approximately $2 billion and that cleanup could take years. Is 
that correct?
    Ms. Sullivan. Yes, ma'am, it is correct.
    Senator Duckworth. That is a staggering amount of money, 
and our military families really can't afford to wait for 
action, and they certainly can't wait for $2 billion--first to 
find $2 billion to try to fix the problem. I have proposed that 
every family on every base that has been found to exceed EPA's 
health advisory limit receive a point of entry water filtration 
system that is capable of removing PFAS contamination.
    Ms. Sullivan, I believe this solution would cost much less 
than the $2 billion and could deliver results for families now. 
Would you support my request, and do you agree that this is a 
cost effective and swift solution in the near term?
    Ms. Sullivan. Ma'am, actually, no one on our military 
installations is drinking water above the LHA. We addressed 
that problem in 2016. The $2 billion is associated with 
cleaning up the groundwater, not the drinking water. The 
drinking water has already been addressed; we have already 
expended the moneys to address drinking water. Again, no one on 
our military installations is drinking water above the Lifetime 
Health Advisory, and that hasn't happened since 2016.
    Senator Duckworth. What about other exposure?
    Ms. Sullivan. Well, the various exposures are from products 
that they use that are the same as any other commercial 
products at this point.
    Senator Duckworth. I would love to see the data on that, if 
you could provide that to my office.
    Ms. Sullivan. Absolutely.
    Senator Duckworth. Thank you.
    Far too many communities worry about the quality of their 
drinking water in this country. EPA and DOD have failed to 
understand the scope of the PFAS problem, and they have failed 
to determine how to dispose of the chemicals which persist in 
the environment and our bodies and regulate the chemical.
    Mr. Ross, I am concerned that the EPA has been captured by 
chemical interests who do not want to be regulated, and that is 
why EPA has been slow to act. The PFAS Action Plan says that 
EPA will begin the process, will begin the process of 
determining whether any PFAS chemicals should be listed on the 
Toxic Release Inventory, which will provide communities with 
information about when these chemicals are released into the 
environment.
    How long will it take to finalize a rule that lists one or 
more PFAS chemicals on the Toxic Release Inventory?
    Mr. Ross. Well, the Toxic Release Inventory, the TRI, under 
EPCRA Section 313, is one of the many tools that we mention. 
The TSCA program is focused a lot on using the TSCA authorities 
in the market entry.
    For that particular one, to list something on the TRI you 
have to take a look at whether or not you have the data to list 
and then whether or not it is still in commerce, so for PFOA 
and PFOS, for example, we have the data, we have the hazard 
data, but those are the older compounds of the legacy chemicals 
that have been then cycled out, and I think that is what Ms. 
Sullivan was talking about in the military world.
    Part of the analysis under the TRI is which compounds have 
sufficient data to match the TRI listing criteria, and right 
now they are doing the evaluation on how to and whether to move 
forward on TRI.
    Senator Duckworth. OK. So, is finalizing this rule subject 
to the same arbitrary Trump administration executive order that 
says we can't implement a new rule until two old rules are 
eliminated?
    Mr. Ross. All of our rulemaking is dictated by and 
controlled by all the executive orders, so, for example, we go 
through Office of Management and Budget and do cost-benefit 
analyses for a major rulemaking because of executive order. So, 
should we move forward with the TRI rulemaking, we have a 
robust amount of regulatory actions that have been de-reg and 
regulatory, so, for the PFAS world I am not overly concerned 
about being able to move forward with the regulation if and 
when we need to.
    Senator Duckworth. Recent press reports describe a dairy 
farm in Maine whose milk was found to have levels of PFAS of 
more than 1,400 parts per trillion. The source of contamination 
ended up being a sewage sludge that the owners had been 
spreading on their fields as fertilizer for years. It turns out 
that using sludge as fertilizer is a common practice in all 50 
States, raising the concern that there could be widespread PFAS 
contamination of milk, farmland, and drinking water caused by 
this practice.
    Mr. Ross, what plans does EPA have to provide guidance to 
the providers or users of these types of fertilizers to 
regulate their use to ensure that similar instances of 
contamination don't happen elsewhere?
    Mr. Ross. Part of our PFAS Action Plan, one of the actions 
is doing the risk assessment on PFOA and PFOS in bio-solids. I 
am familiar with the Maine scenario, and also there is a dairy 
down in New Mexico, so we have already met with USDA and we are 
working on setting meetings with FDA to make sure the Federal 
family coordinates. But the sludge issue, the bio-solids issue 
is part of our Action Plan, and we are taking a look at the 
risks associated with potential contaminants in bio-solids.
    Senator Duckworth. If you could keep us updated on those 
actions, I would appreciate it.
    Mr. Ross. I would be happy to.
    Senator Duckworth. Thank you.
    I yield back, Mr. Chairman.
    Senator Barrasso. Thank you very much.
    Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Can you also submit that to the full Committee so that we 
all have the feedback on exactly what you are doing in terms of 
the farms?
    Mr. Ross. Oh, sure. I am happy to. Thank you, Senator.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman and Ranking Member Carper, for 
holding this hearing. Addressing PFAS contamination is an 
urgent matter in my State. My constituents in New York--all 
across the country--I have been to so many States in the last 
year, and they have the same crucial issue; Michigan, New 
Hampshire, less so in Iowa, but New Hampshire, yes. It is a 
huge problem, and I learned about it from my backyard.
    People are very worried, they are angry, and they 
desperately want leadership out of this Committee and 
leadership out of our country. Mothers and fathers in Hoosick 
Falls, New York, right down the road from my home, are crippled 
with fear about whether their children will be safe, whether 
the water that they bathe their children in, whether the water 
they cook food for their families in has created a toxin in 
their bodies, in their blood that they won't be able to recover 
from. It is a huge issue.
    Dr. Breysse, you sat with me at the auditorium in Hoosick 
Falls High School nearly 3 years ago, and we heard the most 
heart wrenching, powerful testimony from these families.
    PFAS is also hurting families near Stewart and Gabreski Air 
National Guard bases in New York because for years, obviously, 
as we heard from earlier testimony from Senator Rounds, it has 
been required that our firefighting training, our foam actually 
contains these chemicals.
    Access to clean drinking water is a right, and protecting 
clean water must be central to the work we do for all of us. 
This is not a partisan issue. I am working across the aisle 
with Senator Capito, as she said, to draft legislation to 
address PFAS in our drinking water, which we will be announcing 
soon.
    Dr. Birnbaum, I would like to start with you, because the 
health risks are really what certainly my constituents in the 
audience want to hear more about. We know there are serious 
adverse health risks associated with PFAS chemicals. The 
science is abundantly clear, as I have heard from the families 
affected. This is such an important and powerful issue. Could 
you talk about some of the health risks associated with 
exposure to short chain PFAS chemicals like GenX, which the 
industry has developed to replace PFOA and PFOS?
    Ms. Birnbaum. So, there are a huge number of short chain 
chemicals. GenX, the industry has actually conducted studies 
which have shown that these chemicals impact the liver and 
other tissues and actually cause tumors in both rats and mice 
in those studies. That is GenX. GenX is eliminated from the 
human body quite rapidly, but it essentially is never 
eliminated from the environment. The problem with all of these 
chemicals is that the carbon fluorine bond is extremely 
difficult to break down, so these are chemicals that are 
essentially forever in the environment, even if not in our 
body.
    Some of the other short chain chemicals--recent results 
from the National Toxicology Program have shown that some of 
the short chain chemicals like PFBS, which is a four carbon 
chain sulfonated chemical, is associated with essentially the 
same effects as the PFOS and the PFHXS. There are papers 
published literally almost every day showing effects of many of 
the different short chains, as well as the long chains.
    Senator Gillibrand. Can you tell us some of those effects 
from PFAS exposure, particularly for pregnant women and for 
children?
    Ms. Birnbaum. There were papers that were just published 
this week showing impacts, for example, on increased risk of 
Type 2 diabetes in the offspring and increased risk in obesity 
in the children following in utero exposure. Also, evidence 
that gestational diabetes can be associated in the mother with 
exposure to some of the shorter chain compounds.
    Senator Gillibrand. Do you think it is possible to develop 
a total PFAS or total organic fluorine method for testing and 
monitoring PFAS in our drinking water and groundwater?
    Ms. Birnbaum. There are methods that are being developed to 
look at total organic fluorine. It is very important, if you 
are dealing with water, that you are able to distinguish 
between the inorganic fluoride that is added to many of our 
drinking water systems for dental health from the organic 
fluorides, and there are several methods that are currently 
being used and being further developed.
    I think it is also interesting that there are methods that 
are being used to measure organic fluorides in products and in 
human blood and serum.
    Senator Gillibrand. Well, I would love some recommendations 
for the Committee on that, if you could put that in writing.
    Ms. Birnbaum. Sure.
    Senator Gillibrand. Dr. Breysse, I only have few minutes 
left, but what can the Federal Government do to prepare the 
victims of PFAS exposure for the serious health consequences, 
like cancer and kidney disease, that will expect to develop? 
And I ask specifically because through the 9/11 health bill we 
developed a medical monitoring program that is actually saving 
lives and making sure there aren't misdiagnoses, to making sure 
we have experts in the field who understand what these risks 
are so they can diagnose these illnesses early.
    What do you think the Federal Government can do or should 
do?
    Mr. Breysse. Giving advice to the clinical community is 
crucial going forward. When we go into communities, and we 
measure PFAS levels in people's blood for whatever reason they 
might be doing that, the first thing they do is they go to 
their doctor.
    So we have an aggressive clinical outreach program as part 
of our work when we go into communities. We have guidelines for 
physicians we publish on our Web page. We support, along with 
EPA, the Pediatric Environmental Health Specialty Units, which 
are clinical facilities that are designed specifically to 
answer questions like this, so we constantly refer the local 
medical community to our PEHSUs to get those concerns. We hold 
grand rounds to clinicians when we come into communities, and 
we are reaching out aggressively to communities about these 
issues.
    Senator Gillibrand. Thank you.
    Mr. Breysse. The medical communities.
    Senator Gillibrand. Mr. Chairman, can I just ask for 
unanimous consent to include some statements from two of my 
constituents in the record, Mark Favors and Laurine Hackett, 
who is here, describing the experiences of their families 
resulting from the exposure to PFAS chemicals in their drinking 
water? As I said, these stories are heart breaking, and I just 
hope that all of my colleagues will take the opportunity to 
read them so they know the real intense, personal impact this 
issue is having on people's lives.
    Senator Barrasso. Without objection.
    Senator Gillibrand. Thank you, Mr. Chairman.
    [The referenced information was not received at time of 
print.]
    Senator Barrasso. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    PFAS substances have been silent terrors to communities 
across the country for too long. Residents of Westfield, Ayer, 
Devens, Hyannis, and several other towns across Massachusetts 
are haunted by the threat these chemicals pose to their health 
and the health of their children.
    Mr. Chairman, I would like to submit to the record 
statements from Massachusetts residents concerned about the 
impact of PFAS exposure.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Markey. Thank you.
    We have Kristin Mello from Westfield who is in the audience 
here today.
    EPA Administrator Andrew Wheeler recently stated that 
climate change isn't his top priority; the most serious 
environmental threat we face is access to clean water.
    First, addressing climate change is inextricably linked to 
access to clean water. The more pollution we have in the air, 
the more we have in the water, the less available the water is 
for drinking, our recreation. That is just a fact 
scientifically.
    Second, EPA has identified more than 1,000 PFAS chemicals 
historically approved for use in U.S. commerce, yet the EPA has 
narrowed its major actions to focus on just two of these 
chemicals present in drinking water; not 1,000 chemicals--two.
    Third, just 2 weeks ago EPA submitted its budget request 
for 2020 that cuts funding for clean water by almost 40 
percent. Cuts the budget for clean water by 40 percent; the 
Trump administration. Apparently, EPA's hypocrisy knows no 
bounds.
    Mr. Ross, testing and cleaning up PFAS contamination is 
very expensive for States and localities. Just cleaning up 
contaminated wells in Barnstable, Massachusetts, cost nearly $3 
million. Do you agree that fewer EPA resources for clean water 
may put more financial burden on States and towns that are 
worried about PFAS contamination?
    Mr. Ross. Related to PFAS contamination, of the action 
items within the Office of Water, under the proposed budget, I 
will have the resources I need to implement the Action Plan 
items. And our loan programs, the Drinking Water Revolving 
Funds, are very, very powerful tools. There is a very 
significant corpus in those loan programs that States can tap 
into to provide both technical assistance and infrastructure 
developments.
    Senator Markey. So no city, no State will have to worry 
that the funding won't be there for them, is that what you are 
saying?
    Mr. Ross. That is not what I said, Senator. What I said, 
like today----
    Senator Markey. You are saying for the plan that you have 
for them. But the problem is your plan doesn't match the 
magnitude of the problem. That is the point that we are making. 
A vision without funding is a hallucination. To say you have a 
plan, but we are not going to do all the chemicals, to say we 
have a plan, but we are not going to have the same amount of 
money, you wind up saying the plan will not be adequate.
    So that ultimately becomes the problem, because despite 
Andrew Wheeler's stated commitment to clean water, EPA acted 
faster than William Barr declaring no collusion when it came to 
dismantling the clean water protections under the Waters of the 
United States Rule. The EPA even denied a request from 36 
Senators and 160 Congresspeople to extend the public comment 
period for this disastrous action. But when it comes to 
cleaning up our water from toxins like PFAS, lead, copper, and 
other toxic contaminants in water, the EPA slows to a snail's 
pace.
    The recently announced EPA Action Plan on PFAS is 
unfortunately more an inaction plan since it lacks any real 
deadlines or timeliness for protections.
    Mr. Ross, could new PFAS forever chemicals be brought to 
market and put into our environment even as EPA struggles to 
address and understand the current scope of contamination?
    Mr. Ross. Right now those new chemicals to market go 
through the TSCA program, which was enhanced in 2016 with 
amendments to the TSCA program.
    Senator Markey. So you can add.
    Mr. Ross. What I am aware of is as they go through the 
screening process in the new chemicals program, they look at 
the hazard data that is submitted, they take a look at exposure 
assessments. At this point I think only one chemical in the 
last 2 years has come through and into the market, but there 
are a lot of variety effects of that.
    Senator Markey. So, total, how many new PFAS chemicals has 
EPA approved?
    Mr. Ross. Under this Administration, I am aware of one.
    Senator Markey. One. So, 2 years ago the EPA set a Lifetime 
Health Advisory level of 70 parts per trillion for two 
chemicals in the PFAS family. Since then, several States have 
set or proposed their own limits, almost all of which are lower 
than the EPA's.
    Ms. Sullivan, will the Department of Defense commit to meet 
lower State cleanup levels when working to remediate Federal 
facilities contaminated with PFAS?
    Ms. Sullivan. Sir, first of all, I grew up in 
Massachusetts, so I am very concerned about what is going on 
there. We will meet any properly promulgated standard that is 
issued by the State and roll it into our cleanup program.
    Senator Markey. OK. And on the issue of e-mails obtained 
last year by Politico which revealed a rift between Federal 
scientists at the Agency for Toxic Substances and Disease 
Registry and political staff at the White House, EPA, and the 
Department of Defense political staff allegedly sought to 
suppress a study that would show PFAS dangerous to human health 
at levels much lower than EPA has previously called safe. In e-
mails the White House called the release of this study a 
``public relations nightmare.''
    Mr. Ross, Ms. Sullivan, yes or no, can you commit right now 
that you will not hide scientific information from the public 
for fear of political costs of bad PR?
    Ms. Sullivan. We never actually saw the ATSDR document. I 
never asked that it be suppressed.
    Senator Markey. Will you promise never to hide the science 
from the public?
    Ms. Sullivan. Correct. Yes, sir.
    Senator Markey. Mr. Ross.
    Mr. Ross. EPA believes in public transparency for 
scientific information, yes.
    Senator Markey. So you will never hide it?
    Mr. Ross. We will never hide it.
    Senator Markey. OK, good. Thank you.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you.
    Senator Carper.
    Senator Carper. Again, our thanks to each of you for 
joining us today and responding to our questions, and we will 
have some more questions for the record.
    Maybe one or two to close out with Ms. Sullivan.
    I want to call you Maureen O'Sullivan.
    EPA has said that it is unsafe to drink water that has more 
than 70 parts per trillion of PFAS in it. EPA has also said 
that military and Superfund sites with PFAS contamination 
should be cleaned up also to at least to a level that does not 
exceed 70 parts per trillion.
    But as I understand, the Department of Defense is refusing 
to clean up contamination where it exceeds 400 parts per 
million, according to the information that my office and staff 
have received. If that is true, why does the Department of 
Defense think it is appropriate to subject servicemembers, 
their families, and the surrounding communities to a higher 
level of PFAS than EPA believes is safe?
    Ms. Sullivan. Sir, first of all, we have already stepped 
out and addressed drinking water. Where DOD is the known source 
of PFOS and PFOA in drinking water, we have ensured that it is 
below the 70 parts per trillion, so no one is drinking water 
above the Lifetime Health Advisory where DOD is the known 
source.
    For the long term strategy for cleanup, we are following 
the already established EPA CERCLA risk assessment process that 
applies to all chemicals, and that is the way we are proceeding 
under our responsibilities under the Defense Environmental 
Restoration Program statute and in full compliance with CERCLA.
    Senator Carper. So the concern I am pointing to here is one 
that says EPA says it is not safe to drink water with levels 
that exceed 70 parts per trillion. DOD is up here, as I have 
been told, has been up here saying we are not going to pay for 
anything on a cleanup unless it exceed 400 parts per trillion. 
That leaves a pretty big gap.
    Ms. Sullivan. Sir, I don't want to----
    Senator Carper. Again, I just want to make sure that I am 
not missing something here.
    Ms. Sullivan. Right. I don't want to confuse groundwater 
with drinking water. As I have stated, we have already 
addressed the drinking water that is above 70 parts per 
trillion, and we will continue to maintain that commitment, the 
drinking water of 70 parts per trillion, the EPA's Lifetime 
Health Advisory.
    The groundwater is where we are having discussions and 
trying to figure out how this actually applies using the 
existing CERCLA process that applies for all chemicals.
    Senator Carper. My staff just handed me a note that says 32 
percent of Americans get drinking water from groundwater.
    Ms. Sullivan. That is true, sir.
    Senator Carper. Keep that in mind. We will come back. We 
will have some more questions.
    Ms. Sullivan. No, I agree----
    Senator Carper. My time is about to expire, so let me ask 
you one more, and that is you say that since 2016 no military 
member is drinking contaminated water with PFAS above the 
Health Advisory level. Are you able to make the same kind of 
assurance for all the surrounding communities at these bases? 
Are all these citizens also protected from contamination caused 
by the Department of Defense?
    Ms. Sullivan. Yes, sir, we have been very aggressive to go 
out and look where we are the known source off the base, and if 
we are the known source off the base, we are in fact installing 
treatment systems, hooking homeowners up to municipal treatment 
systems, so, yes, off-base and on-base.
    Senator Carper. Thank you.
    Let me just conclude by saying I want to again continue to 
convey a sense of concern, really, in some cases a sense of 
alarm at what we sense is a lack of urgency that we have heard 
about this issue, leading up to today and even to some extent 
at this hearing. It took mere months for EPA to announce and 
begin the process of repealing scores of Obama rules, ranging 
from the Clean Water Rule to the Clean Car Rule to the Clean 
Power Plan, and EPA is well along the process for finalizing 
replacements for all those rules with weaker, I think less 
protective, alternatives.
    Yet when it comes to the issue that Mr. Wheeler himself 
says is the biggest environmental issue we face, that is, 
access to clean drinking water, we are told that EPA can't even 
begin to guess when even a single step to protect Americans is 
finalized, and that is just not acceptable if it is true.
    If this Administration will not, I think Congress needs to, 
and I hope to work with all of our colleagues in the House and 
Senate to let on legislative initiatives that will address the 
threats that these chemicals pose. And to the extent we can 
find common ground in its efforts with the Administration and 
others, we want to do that, but this is an oversight hearing. 
Part of our job is oversight, and it is something that we take 
seriously, and we hope that you recognize that, too.
    Thank you all for being here.
    Senator Barrasso. Thank you, Senator Carper.
    Before we close, I do also have a number of letters from a 
variety of organizations, as well as statements from members of 
communities which have PFAS pollution, and I ask unanimous 
consent to enter these documents into the record.
    Without objection, they are entered.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
   
    
    Senator Barrasso. I want to thank all of you for being here 
today. I am very grateful for your time and your testimony.
    Members may submit follow up written questions for the 
record. The hearing record will then be open for the next 2 
weeks.
    So, anyway, thank you so much. We appreciate your efforts 
and your interest and your testimony today.
    The hearing is adjourned.
    [Whereupon, at 11:38 a.m. the Committee was adjourned.]

                                 <all>
</pre></body></html>
